                                                      National Railroad Passenger Corporation
                                                      Office of Inspector General
                                                      10 G Street N.E.
                                                      Washington, DC 20002




                         Contractor Credits Personal Credit Cards
                                  Case Number 09-006
                                     August 17, 2010

A cooperating witness reported that an Amtrak contractor received more than $72,000 worth of
Amtrak credits to his personal credit cards. Agents substantiated this allegation through review
of documents and interviews. The contractor pled guilty to receiving stolen property and was
sentenced to five years probation, a fine of $3,000 and restitution of $72,487.
